APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM
VISA PLATINUM REWARDS/GLOBAL GOOD/
STUDENT REWARDS
VISA SIGNATURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

0.00% Introductory APR, for qualifying members, for a period of 12
billing cycles from account opening.
After that, or if you do not qualify for the Introductory APR, your APR will be

9.90% to 17.90% , based on your creditworthiness.
Visa Platinum Rewards/Global Good/Student Rewards

0.00% Introductory APR, for qualifying members, for a period of 12
billing cycles from account opening.
After that, or if you do not qualify for the Introductory APR, your APR will be

11.90% to 19.90% , based on your creditworthiness.
Visa Signature

0.00% Introductory APR, for qualifying members, for a period of 12
billing cycles from account opening.
After that, your APR will be 11.15% . This APR will vary with the market
based on the Prime Rate.
APR for Balance Transfers

Visa Platinum
0.00% Introductory APR, for qualifying members, for a period of 12 billing
cycles from account opening.
After that, or if you do not qualify for the Introductory APR, your APR will be
9.90% to 17.90% , based on your creditworthiness.
Visa Platinum Rewards/Global Good/Student Rewards
0.00% Introductory APR, for qualifying members, for a period of 12 billing
cycles from account opening.
After that, or if you do not qualify for the Introductory APR, your APR will be
11.90% to 19.90% , based on your creditworthiness.
Visa Signature
0.00% Introductory APR, for qualifying members, for a period of 12 billing
cycles from account opening.
After that, your APR will be 11.15% . This APR will vary with the market
based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04800387-MXC10-C-1-020520 (MXC101-E)

APR for Cash Advances

Visa Platinum
9.90% to 17.90% , based on your creditworthiness.
Visa Platinum Rewards/Global Good/Student Rewards
11.90% to 19.90% , based on your creditworthiness.
Visa Signature
11.15%
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee - Visa
Platinum, Visa Platinum Rewards/Global
Good/Student Rewards
- Foreign Transaction Fee - Visa
Signature
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
$10.00 or 3.00% of the amount of each balance transfer, whichever is
greater
$3.00
1.00% of each transaction in U.S. dollars

None
None
Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for purchases and balance transfers will apply to transactions posted to your account during the first
12 months following the opening of your account. Any existing balances on Summit Credit Union loan or credit card
accounts are not eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 01, 2020
information may have changed after that date. To find out what may have changed, contact the Credit Union.

. This

For California Borrowers, the Visa Platinum, Visa Platinum Rewards, Global Good, Student Rewards, and Visa
Signature are secured credit cards. Credit extended under this credit card account is secured by various
personal property and money including, but not limited to: (a) any goods you purchase with this account, (b) any
shares you specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you
have in any individual or joint account with the Credit Union excluding shares in an Individual Retirement
Account or in any other account that would lose special tax treatment under state or federal law, and (d)
collateral securing other loans you have with the Credit Union excluding dwellings. Notwithstanding the
foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be
secured by all shares you have in any individual or joint account with the Credit Union. For clarity, you will not be
deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04800387-MXC10-C-1-020520 (MXC101-E)

Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are five or more days late in making a
payment.
Balance Transfer Fee (Finance Charge):
$10.00 or 3.00% of the amount of each balance transfer, whichever is greater.
Cash Advance Fee (Finance Charge):
$3.00.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$5.00.
Document Copy Fee:
$3.00.
Rush Fee:
$55.00.
Statement Copy Fee:
$5.00.
Global Good: Summit Credit Union will donate 15.00% of the interchange fee on every purchase you make to the
Worldwide Foundation for Credit Unions. Donations from your purchases help provide access to the financial building
blocks needed to support families and strengthen economies in communities around the world.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04800387-MXC10-C-1-020520 (MXC101-E)

